JAMES E. TYSSE
+1 202.887.4571/fax: +1 202.887.4288
jytsse@akingump.com

February 8, 2021
VIA HAND DELIVERY
The Hon. Scott S. Harris
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
Re:

Arlene Fry v. Rand Construction Corporation, No. 20-861

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on December 23,
2020, and placed on this Court’s docket on December 30, 2020. Although
respondent initially waived its right to respond to the petition, by waiver form dated
January 15, 2021, the Court requested that a response be filed. That response is
currently due for filing on February 24, 2021. Respondent respectfully requests a
30-day extension of time for filing the response, to and including March 26, 2021.
The additional time is necessary due to the heavy press of matters before other
courts and in light of the ongoing public health concerns relating to COVID-19.
Sincerely yours,

James E. Tysse

cc:

Adam Augustine Carter (via overnight delivery)
Michael L. Foreman (via overnight delivery)

Robert S. Strauss Tower | 2001 K Street, N.W. | Washington, D.C. 20006-10037 | 202.887.4000 | fax 202.887.4288 | akingump.com

